No. 20-423

IN THE
SUPREME COURT OF THE UNITED STATES

LAQUANDA GILMORE GARROTT,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

I, Jackie Percezek, Esq., declare that on this date, December 22, 2020, I served
the enclosed Reply Brief for Petitioner on each party to the above entitled case or
that party’s counsel, by depositing an envelope containing three copies of the above
document in the United States mail, properly addressed to each of them and with
first-class postage prepaid. The names and addresses of those served are as follows:

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.

 
I declare under penalty of perjury that the foregoing is true and correct. 1
further certify that all parties required to be served have been served.

Executed on December 22, 2020.

mak PERCZEK

Counsel of Record
BLACK, SREBNICK,

KORNSPAN & STUMPF, P.A.
201 S. Biscayne Boulevard, #1300
Miami, FL 33131
Telephone (305) 371-6421
JPerczek@RoyBlack.com

Counsel for Petitioner
